U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



       Food and Nutrition Service
     National School Lunch Program
  Food Service Management Companies




                 Report No.
                 27099-15-SF
                 April 2001
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                       Western Region - Audit
                                   75 Hawthorne Street, Suite 200
                                   San Francisco, CA 94105-3920
                               TEL: 415-744-2851 FAX: 415-744-2871




      DATE: April 12, 2001

 REPLY TO
  ATTN OF: 27099-15-SF

 SUBJECT: Food and Nutrition Service, National School Lunch Program
          Food Service Management Companies

        TO: Allen Ng
            Regional Administrator
            Western Region
            Food and Nutrition Service

      ATTN: Martin Tom
            Chief of Financial Services


This report presents the results of our audit of Food Service Management Companies that
contract with local School Food Authorities to manage food service operations under the
provision of the National School Lunch Program. This audit was conducted in the State of
Washington as part of a nationwide audit of Food Service Management Companies. The
results of this audit may be incorporated into a nationwide summary audit report.

Your March 28, 2001, written response to the draft report is included as exhibit B of the
report. Based on your response, we have accepted your management decisions on all
recommendations in the report. The Office of the Chief Financial Officer (OCFO), U.S.
Department of Agriculture, has responsibility for monitoring and tracking final action on the
findings and recommendations. Please note that final action on the finding and
recommendations should be completed within 1 year of each management decision.
Please follow your internal agency procedures in forwarding final action correspondence to
the OCFO.

We appreciate the cooperation and assistance provided by your staff during this audit.

/s/


SAM W. CURRIE
Regional Inspector General
 for Audit
                  EXECUTIVE SUMMARY
                      FOOD AND NUTRITION SERVICE
                    NATIONAL SCHOOL LUNCH PROGRAM
                  FOOD SERVICE MANAGEMENT COMPANIES
                         STATE OF WASHINGTON

                         AUDIT REPORT NO. 27099-15-SF


                                     This report presents the results of our review of
      RESULTS IN BRIEF               Inter Pacific Management, Inc., a food service
                                     management company operating under the
                                     National School Lunch and School Breakfast
          Programs (NSLP/SBP) in the State of Washington. We performed this
          review as a part of a nationwide audit of food service management
          companies. We selected the State of Washington for review because this
          State had both fixed-rate-per-meal contracts and cost-reimbursable
          contracts. We judgmentally selected for review Inter Pacific Management,
          Inc., and the largest school food authority that contracted with it, the
          Evergreen School District.

            Our objectives were to determine whether controls were sufficient to ensure
            that Inter Pacific credited Evergreen for: (1) the full value of USDA-donated
            commodities used, and (2) all volume purchase discounts, or other credits
            applicable to the NSLP/SBP.

            Our review disclosed that Inter Pacific was not required to credit Evergreen
            for the full value of the USDA-donated commodities because Inter Pacific’s
            actual costs were billed to the school district. We also determined that Inter
            Pacific contracted with the lowest bidders and these vendors have a general
            policy of not discounting their products or offering credits. However, we
            identified three separate instances in which Inter Pacific received a rebate
            from a vendor. We determined in each instance that the rebate was sent to
            the school district.

            During our review, we also determined that Evergreen recorded the salaries
            and benefits of the four custodians as an expense to the NSLP/SBP. The
            accounting department at the school district inadvertently miscoded this
            expenditure and did not review its program expenditures to ensure that the
            program benefiting from the service was being charged.




USDA/OIG-A/27099-15-SF                                                             Page i
                                         We recommend that FNS:
 KEY RECOMMENDATIONS

            q   Instruct the Washington State agency to ensure that Evergreen School
                District transfers $60,959 in nonprogram related salaries and benefits to
                the appropriate program.

            q   Instruct the Washington State agency to have Evergreen School District
                review its program expenditures on a regular basis and establish controls
                that will allow nonprogram expenditures to be identified and assigned to
                the appropriate programs.

                                         In its March 28, 2001, written response to the
     AGENCY RESPONSE                     draft report, the Food and Nutrition Service
                                         concurred with the report finding and
                                         recommendations.

                                         Based on the corrective actions planned, we
         OIG POSITION                    have accepted FNS’ management decision.
                                         FNS’ written response is included as exhibit B
                                         of this report.




USDA/OIG-A/27099-15-SF                                                            Page ii
                               TABLE OF CONTENTS

EXECUTIVE SUMMARY .............................................................................................................i
          RESULTS IN BRIEF .........................................................................................................i
          KEY RECOMMENDATIONS ..........................................................................................ii
          AGENCY RESPONSE....................................................................................................ii
          OIG POSITION..................................................................................................................ii

INTRODUCTION...........................................................................................................................1
          BACKGROUND ...............................................................................................................1
          OBJECTIVES...................................................................................................................2
          SCOPE .............................................................................................................................2
          METHODOLOGY.............................................................................................................3

FINDING AND RECOMMENDATIONS .....................................................................................5
          CHAPTER 1 - EVERGREEN SCHOOL DISTRICT MISCODED THE SALARIES
                      AND BENEFITS OF FOUR NONPROGRAM EMPLOYEES............5
          FINDING NO. 1 .................................................................................................................5
          RECOMMENDATION NO. 1...........................................................................................6
          RECOMMENDATION NO. 2...........................................................................................7
          EXHIBIT A – SUMMARY OF MONETARY RESULTS.................................................8
          EXHIBIT B – AUDITEE RESPONSE TO DRAFT REPORT.......................................9




USDA/OIG-A/27099-15-SF                                                                                                              Page iii
                          INTRODUCTION
                                        On June 4, 1946, Congress passed the
        BACKGROUND                      National School Lunch Act (42 U.S.C. 1751-
                                        1760), which authorized and established the
                                        National School Lunch Program (NSLP) to
          safeguard the health and well being of the Nation's children and encourage
          the domestic consumption of agricultural commodities. The program
          provides Federal assistance to help public and non-profit private high
          schools, as well as public and non-profit private residential child-care
          institutions, serve nutritious lunches to children. The Act, as amended,
          authorizes payment of general and special cash assistance funds to States
          based upon the number and category of lunches served, and special cash
          assistance for lunches served under the NSLP to children eligible for free or
          reduced-price lunches. In 1966, Congress expanded food assistance to
          include a School Breakfast Program (SBP), which was made a permanent
          program in 1975.

            Through written agreements with the State agency, each School Food
            Authority administers the NSLP at the local, municipal, and school district
            level. The school authority is allowed to contract with a food service
            management company to manage the food service operation at its schools.
            The contract between the school authority and the food company may be
            either a fixed-rate-per-meal contract, or a reimbursement-of-costs contract.
            Both types of contracts should require that certain types of benefits accrue
            back to the school authority. In the case of fixed-rate-per-meal contracts, the
            food company is normally required under the contract to credit to the school
            authority the full value of any donated commodities that the food company
            received and used in the NSLP/SBP. For cost-reimbursable contracts, the
            food company may receive volume purchase discounts and rebates that
            would reduce the cost of goods purchased. The school authorities are
            entitled to share in the cost-savings received by the food companies even if
            the discounts and/or rebates occurred after the school authorities were
            billed.

            In the State of Washington, the Office of Superintendent of Instruction granted
            the Evergreen School District authority to administer the NSLP. Evergreen in
            turn contracted with Inter Pacific Management, Inc., under a cost-
            reimbursable contract. Evergreen is responsible for program integrity and
            adhering to Federal and State requirements under its contract with Inter
            Pacific. Evergreen provides oversight to the individual schools responsible
            for the onsite operation of the NSLP/SBP and ensures that all commodities
            received by the schools or by Inter Pacific are used and that the full value of
            those commodities benefit only the schools’ food service operations. In its
USDA/OIG-A/27099-15-SF                                                             Page 1
            oversight capacity, Evergreen is also required to implement a meal
            accountability system and to approve student applications for free and
            reduced-price meals.

            During fiscal years 1998-2000, the State of Washington Office of
            Superintendent of Public Instruction disbursed a total of $369,622,210 in
            federal meal reimbursements to its school districts. Of that, Evergreen
            received a total of $4,416,982 in federal meal reimbursements, and
            $537,855 in USDA-donated commodities.            Over that same period,
            Evergreen distributed all of USDA-donated commodities to Inter Pacific and
            reimbursed Inter Pacific $9,977,423 for food, labor, general expenses, and
            management fees.

                                    Our objectives were to determine whether
         OBJECTIVES                 controls were sufficient to ensure that Inter
                                    Pacific Management, Inc., credited the
                                    Evergreen School District for the full value of
          USDA-donated commodities Inter Pacific used, and for all volume purchase
          discounts Inter Pacific received, or other credits applicable to the
          NSLP/SBP.

            As noted in the Executive Summary, nothing came to our attention that
            suggested Inter Pacific did not credit Evergreen for the full value of USDA-
            donated commodities and for volume purchase discounts. However, during
            the audit we noted that Evergreen included nonprogram salaries and
            benefits to the program. Therefore, we expanded our audit objectives to
            include the development of this issue.

                                         The audit scope covered the NSLP/SBP
             SCOPE                       operations at the State of Washington Office of
                                         Superintendent of Instruction (State agency), the
                                         Evergreen School District, and Inter Pacific
            Management, Inc., for fiscal years 1998 - 2000.

            This audit was part of a nationwide audit of Food Service Management
            Companies. We judgmentally selected Inter Pacific Management, Inc., in
            the State of Washington because the State had both fixed-rate-per-meal
            contracts and cost-reimbursable contracts. We then selected for review the
            largest School Food Authority in the State of Washington that contracted with
            Inter Pacific. This was the Evergreen School District.

            We performed audit fieldwork from May 23, 2000 through July 21, 2000. We
            conducted this audit at: (1) the Food Nutrition Service Regional Office
            (FNSRO) in San Francisco, California; (2) the Office of Superintendent of
            Instruction in Olympia, Washington; (3) the Evergreen School District in
            Vancouver, Washington; and (4) Inter Pacific Management, Inc., at its
            Evergreen school field office in Vancouver, Washington.

USDA/OIG-A/27099-15-SF                                                             Page 2
            The audit was conducted in accordance with generally accepted government
            auditing standards.

                                         To accomplish our objectives and support our
       METHODOLOGY                       findings, we performed the following steps:


               q   At the FNSRO, we reviewed the responsibilities over USDA-donated
                   commodities by the FNSRO, the Evergreen School District, and Inter
                   Pacific and the monitoring efforts performed to ensure that applicable
                   regulations were met. We also reviewed the process followed to
                   obtain, price, distribute, and reconcile USDA-donated commodities.
                   In addition, we reviewed the management evaluations, reports,
                   memos, guidelines, and procedures. Lastly, we reviewed the
                   requirements and restrictions of contracts between school food
                   authorities and food service management companies, and contracts
                   between food service management companies and vendors.

               q   At the Office of Superintendent of Instruction, we reviewed the
                   procurement requirements for school food authorities contracting with
                   food service management companies. We also reviewed: (1) the
                   correspondence between the Office of Superintendent of Instruction
                   and the school food authorities, (2) monthly reports of school program
                   operations, (3) financial status reports, (4) year-end financial status
                   reports, and (5) recent audits of the Evergreen School District. In
                   addition, we reviewed the monitoring efforts by the Office of
                   Superintendent of Instruction to review the contract between the
                   Evergreen School District and Inter Pacific Management, Inc.

               q   At the Evergreen School District, we interviewed the officials
                   responsible for the requests for proposals from the food companies,
                   the bidding process, pre-bid conferences, and the contract with Inter
                   Pacific. In addition, we reviewed the: (1) correspondence between
                   Evergreen and Inter Pacific, (2) contracts between Evergreen and
                   Inter Pacific, and (3) expenditures claimed by Inter Pacific for the last
                   3 fiscal years. Moreover, we evaluated the procedures used to gather
                   and consolidate monthly meal claims and Evergreen’s monitoring
                   efforts to ensure schools were adequately monitored. Finally, we
                   documented the number of free, reduced, and paid lunches and
                   breakfasts claimed from 1998 - 2000, and compared them to Inter
                   Pacific’s records for meal accountability.

               q   At Inter Pacific, we reviewed: (1) procedures followed to submit
                   claims to Evergreen, (2) documentation supporting proper use of
                   USDA-donated commodities, and (3) procurement process for
                   contracting with vendors. We also interviewed vendors doing

USDA/OIG-A/27099-15-SF                                                              Page 3
                  business with Inter Pacific over the last 3 fiscal years to determine if
                  any discounts, rebates, or any other incentives were offered or
                  documented in the contract.




USDA/OIG-A/27099-15-SF                                                             Page 4
         FINDING AND RECOMMENDATIONS
                          EVERGREEN SCHOOL DISTRICT MISCODED THE
CHAPTER 1                 SALARIES AND BENEFITS OF FOUR NONPROGRAM
                          EMPLOYEES
                                              Evergreen School District recorded the salaries
              FINDING NO. 1                   and benefits of four nonprogram employees as
                                              an expense to the National School Lunch
                                              Program and School Breakfast Program
                 (NSLP/SBP).        This occurred because the accounting department
                 inadvertently miscoded these expenditures in the accounting system and
                 Evergreen did not have controls in place to ensure that program
                 expenditures were coded correctly to the program that received the benefits.
                  As a result, the expenditure account for the NSLP/SBP was overstated by
                 $60,959.

                  According to Federal regulations, "revenue received by the nonprofit school
                  service are to be used only for the operation or improvement of such food
                  service." 1 Additionally, Federal regulations state that effective control and
                  accountability must be maintained for all grant and subgrant cash, real and
                  personal property, and other assets. Grantees and subgrantees must
                  adequately safeguard all such property and must assure that it is used solely
                  for authorized purposes.2

                  Evergreen had inadvertently coded the expenditures for four nonprogram
                  employees to the food program account when in fact the expense for these
                  employees should have been charged to a district-wide support account.
                  During the past 3 fiscal years, a total of $60,959 was erroneously charged to
                  the NSLP/SBP (see figure 1).

                                          Miscoded Salaries and Benefits
                                                   FY 98     FY 99      FY 00        Total
                     Number of Employees            4          3          3

                     Total Salaries and
                     Benefits Miscoded            $22,525   $20,420    $18,014      $60,959
                     Figure 1: Nonprogram Salaries and Benefits Miscoded in the NSLP/SBP


1
    7 CFR 210.14(a), dated January 1, 1998.
2
    7 CFR 3016.20(b)(2), dated January 1, 1999.

USDA/OIG-A/27099-15-SF                                                                     Page 5
            Our follow-up determined that these employees were custodians who did not
            have agreements to work under the Food Program. For example, one
            employee worked as a custodian 2 hours a day to clean up the dining room
            after lunch and prepare the facility for a subsequent gym class. Another
            employee worked as a custodian several hours to clean up the dinning room
            and other facilities. Over the past 3 fiscal years, a total of $60,959
            nonprogram salaries and benefits were charged to the program.

            The Accounting Manager of Evergreen agreed that these salaries should not
            have been charged to the Food Program because these employees did not
            have any agreement to work for the Food Program. The Director of Budget
            and Fiscal Services at Evergreen School District also stated that it was a
            mistake to charge these salaries to the Food Program.

            As a result of the audit, the Accounting Manager at Evergreen School District
            has stated that he will record the salaries and benefits of these employees to
            the appropriate account, District-wide Support Expenditure Account, starting
            in Federal fiscal year 2001.

            Because the program funding was based on the number of meals served
            and Evergreen appeared to have support for all the meals it claimed
            reimbursement for, we are not recommending monetary recovery. However,
            according to the Accounting Manual of the State of Washington, nonprogram
            expenditures incurred and charged to the Food Program should later be
            transferred out to a sponsoring program. Since these salaries were
            nonprogram related expenditures, they should have been transferred to the
            appropriate program.



  RECOMMENDATION NO. 1

            Instruct the State agency to ensure that Evergreen School District transfers
            $60,959 in nonprogram related expenditures to its benefiting program.

            Agency Response

            In its written response to the draft report, dated March 28, 2001, FNS stated,
            “We concur with your findings and recommendations. The audit report
            indicates the State agency (SA) agrees that they should have reclassified the
            cited salaries to a different account. We will ask the SA for the corrective
            actions once we receive the official audit report for transmittal to the State.”

            OIG Position

            We accept FNS’ management decision on this recommendation.

USDA/OIG-A/27099-15-SF                                                              Page 6
  RECOMMENDATION NO. 2

            Instruct the State agency to have Evergreen School District review its
            program expenditures on a regular basis and establish controls that will allow
            nonprogram expenditures to be identified and assigned to the appropriate
            program.

            Agency Response

            In its written response to the draft report, dated March 28, 2001, FNS stated,
            “We concur with your findings and recommendations. We will ask the SA for
            the corrective actions once we receive the official audit report for transmittal
            to the State.”

            OIG Position

            We accept FNS’ management decision on this recommendation.




USDA/OIG-A/27099-15-SF                                                               Page 7
EXHIBIT A – SUMMARY OF MONETARY RESULTS

   RECOMMENDATION          DESCRIPTION          AMOUNT        CATEGORY
       NUMBER
            1            Nonprogram salaries     $60,959   Accounting
                         and benefits charged              Classification Error
   TOTAL MONETARY                                $60,959
      RESULTS




USDA/OIG-A/27099-15-SF                                                     Page 8
EXHIBIT B – AUDITEE RESPONSE TO DRAFT REPORT




USDA/OIG-A/27099-15-SF                         Page 9
